APPLICATION AND
SOLICITATION
DISCLOSURE

VISA TRADITIONAL/VISA PLATINUM REWARDS/VISA
SIGNATURE REWARDS
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Traditional

10.99% to 13.99% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Rewards

13.99% to 16.99%

, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature Rewards +

12.99% to 15.99%

, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APR for Balance Transfers

Visa Traditional
10.99% to 13.99% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Rewards
13.99% to 16.99% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

APR for Cash Advances

Visa Signature Rewards +
12.99% to 15.99% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Traditional
17.99%
Visa Platinum Rewards
17.99%
Visa Signature Rewards +
17.99%

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
None
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.
SEE NEXT PAGE for more important information about your account.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03112979-MXC10-P-1-071717 (MXC101-E)

Fees
Set-up and Maintenance Fees
- Annual Fee
- Account Set-up Fee
- Program Fee
- Participation Fee
- Additional Card Fee
- Application Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee - Visa
Traditional, Visa Platinum Rewards
- Foreign Transaction Fee - Visa
Signature Rewards
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

None
None
None
None
None
None
2.00% of the amount of each balance transfer
None
1.00% of each transaction in U.S. dollars
None

Up to $25.00
None
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Effective Date:
The information about the costs of the card described in this application is accurate as of: April 1, 2018
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Traditional, Visa Platinum Rewards and Visa Signature Rewards are secured
credit cards. Credit extended under this credit card account is secured by various personal property and money
including, but not limited to: (a) any goods you purchase with this account, (b) any shares you specifically
pledge as collateral for this account on a separate Pledge of Shares, (c) all shares you have in any individual or
joint account with the Credit Union excluding shares in an Individual Retirement Account or in any other account
that would lose special tax treatment under state or federal law, and (d) collateral securing other loans you have
with the Credit Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that
during any periods when you are a covered borrower under the Military Lending Act your credit card will be
secured by any specific Pledge of Shares you grant us but will not be secured by all shares you have in any
individual or joint account with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you
establish your credit card account when you are not a covered borrower; or (ii) you cease to be a covered
borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are three or more days late in making a
payment.
Balance Transfer Fee (Finance Charge):
2.00% of each balance transfer.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Card Recovery Fee:
None.
Card Replacement Fee:
$10.00.
Emergency Card Replacement Fee:
$10.00.
SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03112979-MXC10-P-1-071717 (MXC101-E)

Pay-by-Phone Fee:
$10.00.
PIN Replacement Fee:
None.
Rush Fee:
$30.00.
Statement Copy Fee:
$2.50.
Unreturned Card Fee:
None.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03112979-MXC10-P-1-071717 (MXC101-E)

